 Spotlight
 Department of Homeland Security

Ofﬁce of Inspector General                                                                                  August 2013 OIG-13-108



(U) Review of DHS' Information Security Program
for Intelligence Systems for Fiscal Year 2013

(U) Unclassified Summary
(U) We evaluated the Department of Homeland Security’s (DHS) enterprise-wide security program for Top Secret/Sensitive
Compartmented Information intelligence systems. Pursuant to the Federal Information Security Management Act, we reviewed the
Department’s security program including its policies, procedures, and system security controls for enterprise-wide intelligence
systems. In doing so, we assessed the Department’s continuous monitoring, configuration management, identity and access
management, incident response and reporting, risk management, security training, plans of actions and milestones, contingency
planning, and security capital planning. As of May 2012, the United States Coast Guard (USCG) authorizing official assumed
oversight for USCG's shore-side intelligence systems from Office of Intelligence and Analysis (I&A). USCG is migrating its Coast
Guard Intelligence Support System to a multi-authorizing official structure including DHS, USCG, and Defense Intelligence
Agency.

(U) Since the Fiscal Year 2012 evaluation, I&A continues to provide effective oversight of department-wide systems and maintains
programs to monitor ongoing security practices. I&A has established new initiatives to provide training to Department personnel
with assigned security responsibilities on intelligence systems. Further, I&A has implemented an automated notification and
tracking process to help its security assessors monitor plans of actions and milestones status. We identified deficiencies in the areas
of I&A’s incident response and reporting and security capital planning; and in USCG’s security training, plans of actions and
milestones, contingency planning, and security capital planning. Fieldwork was conducted from April through July 2013.
(OIG-13-108, August 2013, ITA)




For Further Information:
Contact our Office of Public Affairs at (202)254-4100, or email us at DHS-OIG.OfficePublicAffairs@oig.dhs.gov
